   February 10, 2006




Health Care
TRICARE Overseas Controls Over
Third Party Billing Agencies and
Supplemental Health Insurance
Plans (D-2006-051)




              Department of Defense
          Office of the Inspector General
Quality                Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, contact the Secondary Reports
  Distribution Unit, Audit Followup and Technical Support at (703) 604-8937 (DSN
  664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms
CDIS                  Care Detail Information System
CMS                   Centers for Medicare and Medicaid Services
DCIS                  Defense Criminal Investigative Service
GAO                   Government Accountability Office
RAO                   Retired Activities Office
TMA                   TRICARE Management Activity
TOP                   TRICARE Overseas Program
WPS                   Wisconsin Physician Services
                  Department of Defense Office of Inspector General
Report No. D-2006-051                                                              February 10, 2006
    (Project No. D2005-D000LF-0017.000)

            TRICARE Overseas Controls Over Third Party Billing
             Agencies and Supplemental Health Insurance Plans

                                      Executive Summary

Who Should Read This Report and Why? Policymakers and senior managers should
read this report to gain an understanding of the potential for improper payments for health
care provided to overseas DoD beneficiaries.

Background. This report is the first of two that discuss controls at the TRICARE
Management Activity over payments made for healthcare services in overseas locations.
Specifically, this report covers medical billing improprieties in the Philippines, apparent
unlawful waivers of beneficiary cost shares, and sanctioning organizations who were
abusing the TRICARE Overseas Program. The TRICARE Management Activity is a
DoD field activity responsible for managing TRICARE, the DoD healthcare program for
active duty and retired service members and their dependents. The TRICARE Overseas
Program is the DoD-managed healthcare program outside the continental United States.
The TRICARE Management Activity paid about $191 million in TRICARE Overseas
Program claims during FY 2003.

According to the Health Insurance Portability and Accountability Act of 1996, punitive
damages recovered in Federal healthcare convictions and judgments are deposited in the
Federal Hospital Insurance Trust Fund to cover the costs of administering a Healthcare
Fraud and Abuse Program. As of June 2005, only the Department of Health and Human
Services, the Department of Justice, and the Federal Bureau of Investigation receive
funding for the Healthcare Fraud and Abuse Program. DoD should have access to
punitive damages awarded and recovered in TRICARE healthcare convictions and
judgments. DoD should, at a minimum, have access to punitive damages awarded in
TRICARE overseas healthcare fraud investigations where DoD has primary investigative
responsibility. The funds can be used to help defray the cost of curtailing healthcare
fraud and abuse in the TRICARE program.

Results. We performed this audit to evaluate controls over TRICARE payments made to
overseas healthcare providers. Because of an ongoing Defense Criminal Investigative
Service investigation and the dramatic increase in healthcare costs in the Philippines, we
concentrated our efforts in the Philippines. Healthcare costs in the Philippines have risen
from $2.87 million in FY 1998 to $64.19 million in FY 2003, even though the beneficiary
population was relatively constant. *



*
 We did not include FY 2004 data in our report because providers are allowed 12 months for submitting
claims, and as such, the FY 2004 Care Detail Information System data were not finalized at the time of our
audit.
Wide-scale medical billing improprieties occurred in the Philippines by a company that
functioned as a healthcare provider, a third party biller, and a supplemental insurer.
Although the TRICARE Management Activity attempted to ensure that TRICARE
payments for beneficiary healthcare were for the correct amount by tightening
administrative controls, the TRICARE Management Activity can further strengthen
controls by establishing additional guidelines and procedures for validating medical
claims and establishing guidelines and procedures that will help ensure that beneficiaries
pay statutorily mandated cost shares. In addition, the TRICARE Management Activity
should exercise its administrative sanctioning authority to include excluding those found
routinely abusing the TRICARE program. The TRICARE Management Activity should
report the internal control weakness identified in this report in future annual statements of
assurance and raise the risk level associated with the TRICARE Overseas Program
assessable unit from low to high until the material weakness is corrected. Implementing
the recommendations contained in this report could result in significant cost avoidance.
Although we cannot quantify the amount, in July 2004, the Assistant Secretary of
Defense (Health Affairs) estimated that healthcare fraud in the Philippines costs
TRICARE more than $40 million annually. We will attempt to quantify the cost
avoidance during our audit followup process. (See the Finding section of the report for
the detailed recommendations.)

Management Comments and Audit Response. The Assistant Secretary of Defense
(Health Affairs) generally concurred with the finding and the intent of the
recommendations for additional controls and initiatives “to combat fraud.” The Assistant
Secretary disagreed that the internal control weakness identified in the report was
material and therefore did not agree to report the weakness in future annual statements of
assurance or to change the risk associated with the TRICARE Overseas Program
assessable unit from low to high.

The Assistant Secretary’s comments on the internal control weakness are not responsive.
Although the TRICARE Management Activity has taken a number of steps to mitigate
the likelihood of improper payments in the TRICARE Overseas Program, the risk of
improper payments remains high and the weakness cited in the report is material.
According to DoD Instruction 5010.40, “Management Control Program Procedures,”
August 28, 1996, a material weakness includes significantly weakened safeguards against
fraud, waste, or mismanagement of funds. The Assistant Secretary recognized that
improper payments continue and requested additional investigative support. While
investigative support may be warranted, the TRICARE Management Activity cannot rely
on the Office of Inspector General to resolve systemic management control problems in
their TRICARE Overseas Program. Until it evaluates and certifies the effectiveness of
the corrective action, management should report the material management control
weakness. In addition, the TRICARE Management Activity should raise the risk level
associated with the TRICARE Overseas Program assessable unit from low to high until
improper payment issues are corrected. Accordingly, we request that the Assistant
Secretary of Defense (Health Affairs) provide additional comments on the final report by
March 10, 2006. See the Finding section of the report for a discussion of the
management comments on the recommendations and the Management Comments section
of the report for the complete text of the comments.

The Assistant Secretary of Defense (Health Affairs) stated that the absence of
appropriate, necessary Defense Criminal Investigative Service personnel working to
support TRICARE Management Activity efforts has significantly hampered the DoD
ability to investigate fraud and abuse. Because it is responsible for the investigative
resources, the Defense Criminal Investigative Service will respond directly to the
Assistant Secretary.
Table of Contents
Executive Summary                                                    i

Background                                                          1

Objectives                                                          3

Management Control Program Review                                   3

Finding
     Validation of Overseas Third Party Billing Agency Claims and
        Identification of the Unlawful Waiver of Cost Shares         5

Appendixes
     A. Scope and Methodology                                       21
         Prior Coverage                                             22
     B. Report Distribution                                         23

Management Comments
     Assistant Secretary of Defense (Health Affairs)                25
Background
    This report is the first of two that discuss controls at the TRICARE Management
    Activity (TMA) over the payments made for healthcare services in overseas
    locations. The report covers controls related to overseas healthcare claims paid to
    third party billing agencies and payment of required beneficiary cost shares in the
    Philippines. This report also discusses additional administrative remedies that
    should help reduce the potential for improper healthcare claims and potential
    abuse of the TRICARE Overseas Program (TOP). TOP is the DoD-managed
    healthcare program outside the continental United States and includes four areas:
    TRICARE Europe, TRICARE Latin America and Canada, TRICARE Pacific, and
    TRICARE Puerto Rico and Virgin Islands. The second report in this series will
    cover price caps and other administrative controls. Because of an ongoing
    investigation, the names of companies or healthcare providers included in the
    review are not being revealed.
    TRICARE Management Activity. TMA is a DoD field activity responsible for
    managing the TRICARE program. TRICARE is the DoD healthcare program for
    active duty and retired service members and their dependents. TMA establishes
    guidelines for paying healthcare providers, including locations overseas that
    participate in TOP. As part of TOP, TMA paid claims totaling about $191 million
    in FY 2003, of which about $64 million was paid for healthcare in the Philippines.

    TRICARE Overseas Program. TOP blends many of the features of the DoD
    stateside TRICARE program while allowing for significant cultural differences
    unique to foreign countries and their healthcare practices. To process overseas
    claims for TRICARE beneficiaries, TMA awarded a contract to Humana Military
    Healthcare Services who subcontracted the responsibility of processing and
    monitoring claims to Wisconsin Physician Services (WPS). The responsibility for
    processing and monitoring claims included processing claims that third party
    billing agencies submitted.

    Third Party Billing Agencies. According to General Accounting Office [now
    Government Accountability Office (GAO)] Report HEHS 99-127R, “Medicare:
    Identifying Third Party Billing Companies Submitting Claims,” June 2, 1999,
    many providers are using third party billing agencies to assist in processing claims
    and provide advice regarding reimbursement matters, as well as overall business
    decision making. A third party billing agency prepares and submits claims on
    behalf of healthcare providers to TRICARE and private health insurers. Using
    third party billing agencies helps providers concentrate on the business of
    providing quality healthcare and ensure payment for services.

    Claims History in the Philippines. Claims processed in the Philippines went
    from 7,558 in FY 1998 to 157,894 in FY 2003, an increase of approximately
    1,990 percent. During that same time, the total dollar value of claims paid for
    TRICARE beneficiaries rose from $2.87 million to $64.19 million, an increase of
    approximately 2,135 percent while, according to the Defense Manpower Data




                                         1
        Center, the beneficiary population remained relatively constant at about 9,000. 1
        For roughly the same time, 2 according to the National Statistics Office, Republic
        of the Philippines, the medical inflation rate for the Philippines increased
        approximately 80 percent. See Figure 1 below for an illustration of how claims
        increased in the Philippines while the number of beneficiaries remained relatively
        constant.


                                        200


                       (in thousands)
                        Beneficiaries
                         Claims and
                                        150
                                        100                                               Claims
                                         50                                               Beneficiaries
                                          0
                                               1999   2000   2001    2002   2003
                                                             Years
                                              Figure 1. Number of Beneficiaries versus
                                                 Claims Submitted in the Philippines


        Although total claims dropped slightly from FY 2002 through FY 2003, the dollar
        amount of paid claims actually rose from $60.3 million in FY 2002 to
        $64.2 million in FY 2003. TRICARE beneficiaries in overseas locations have
        access to two primary benefit packages—TRICARE Overseas Prime, offered
        through TRICARE Global Remote Overseas for those locations that are not in
        close proximity to a military treatment facility, and TRICARE Overseas Standard.
        About 90 percent of claims originating in the Philippines were for retirees and
        dependents. Only active duty and their family members can participate in
        TRICARE Overseas Prime. Because retirees in overseas locations cannot
        participate in TRICARE Overseas Prime, TRICARE Overseas Standard is the
        predominant plan used in the Philippines. TRICARE Overseas Standard offers
        medical insurance to retirees, their family members, and survivors, with an
        individual deductible of $150, or $300 per family.
        A beneficiary must pay the deductible each year before TRICARE will cover
        charges. After TRICARE begins to cover charges, the beneficiary must continue
        to pay a cost share fee based on the amount billed or an allowable charge. For
        inpatient and outpatient overseas services, beneficiaries must pay 25 percent of
        covered charges after the deductible is met. The beneficiary has an annual
        catastrophic cap (a maximum limit on beneficiary out-of-pocket expenses, which
        includes cost shares and deductibles) of $3,000.



1
 We did not include FY 2004 data in our report because providers are allowed 12 months for submitting
claims, and as such, the FY 2004 Care Detail Information System data were not finalized at the time of our
audit.
2
 The Philippines medical inflation rate before July 1998 was not available; we assumed the increase from
October 1997 through July 1998 was approximately the same as the increase from July 1998 through
March 1999.



                                                        2
    Other Matters of Interest. According to the Health Insurance Portability and
    Accountability Act of 1996, punitive damages recovered in all Federal healthcare
    convictions and judgments are deposited in the Federal Hospital Insurance Trust
    Fund (Fund). The Fund is primarily financed from payroll taxes employees and
    employers pay, which, in turn, finance Medicare Part A to help pay for hospital,
    home healthcare, skilled nursing facilities, and hospice care for disabled and
    elderly individuals. To cover the cost of administering a Healthcare Fraud and
    Abuse Account Program, including audits and investigations, Congress also
    established a Healthcare Fraud and Abuse Control Account within the Fund.

    The Health Insurance Portability and Accountability Act of 1996 requires that
    punitive damages recovered in all TRICARE healthcare convictions and
    judgments be deposited into the Fund; however, DoD does not have access to the
    Fund. The law allows only the Department of Health and Human Services, the
    Department of Justice, and the Federal Bureau of Investigation access to the Fund
    for use in audits and investigations designed to identify and prevent fraud and
    abuse. While the Department of Health and Human Services and the Federal
    Bureau of Investigation may play prominent roles in healthcare judgments and
    convictions obtained for cases occurring within the United States, they generally
    do not participate in TRICARE overseas audits and investigations but receive
    funding based on the outcome of those cases. Between October 1, 1999, and
    March 17, 2005, the Defense Criminal Investigative Service (DCIS) participated
    in overseas healthcare fraud investigations of TRICARE that resulted in $640,600
    in punitive damages. DoD should pursue a legislative change to the Health
    Insurance Portability and Accountability Act of 1996 that would allow DoD
    access to the Fund—particularly punitive damages recovered in TRICARE
    overseas cases not involving Health and Human Services or the Federal Bureau of
    Investigation. Access to the Fund would support efforts to curtail healthcare
    fraud and abuse in the TRICARE program.

Objectives
    Our overall audit objective was to evaluate controls over TRICARE payments
    made to overseas healthcare providers. We also reviewed the management
    control program as it related to the overall objective. Because of an ongoing
    DCIS investigation and a dramatic increase in healthcare costs in the Philippines,
    we concentrated our efforts in the Philippines. This report focuses on payment of
    healthcare claims to third party billing agencies and payment of required
    beneficiary cost shares. A second phase of the audit will address the need for
    additional administrative controls in the Philippines and other overseas locations.
    See Appendix A for a discussion of the scope, methodology, and prior coverage
    related to the objectives.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require that DoD organizations implement a comprehensive



                                         3
system of management controls that provides reasonable assurance programs are
operating as intended and to evaluate the adequacy of the controls.

Scope of the Review of the Management Control Program. We reviewed the
management control procedures related to TOP in the Philippines. We
specifically reviewed the billing practices of overseas providers. We reviewed
management’s self-evaluation applicable to those controls.

Adequacy of Management Controls. We identified a material management
control weakness for TMA as DoD Instruction 5010.40 defines. TMA controls
did not adequately ensure that third party billing agencies were properly
submitting TRICARE overseas claims. In addition, TMA should establish
procedures for detecting unlawful waivers of cost shares and deductibles.
Recommendations 1., 2., and 3., if implemented, should reduce the possibility of
abusive practices by billing agencies in the Philippines as well as unlawful
waivers of cost shares and deductibles. For details of the weakness, see the
Finding section of the report. A copy of the report will be provided to the senior
official responsible for management controls within TMA.

Adequacy of Management’s Self-Evaluation. TMA officials identified the
TRICARE Overseas Program—Access to Care in the Philippines as an assessable
unit but identified the risk associated with TOP as low because TMA officials
believed that sufficient controls were implemented. TMA officials reported that
the material weakness identified in FY 2001 in the TRICARE Overseas
Program—Access to Care in the Philippines was corrected. In FY 2004, the
Assistant Secretary of Defense (Health Affairs) estimated fraud in the Philippines
at $40 million annually. Therefore, TMA should reassess the risk to the
TRICARE Overseas Program—Access to Care in the Philippines as high, as well
as report a material weakness in any future Annual Report to Congress until the
material weakness is corrected.




                                     4
           Validation of Overseas Third Party
           Billing Agency Claims and Identification
           of the Unlawful Waiver of Cost Shares
           Wide-scale medical billing improprieties have occurred in the Philippines
           by a company functioning as a healthcare provider, a third party biller, and
           a supplemental insurer. During FY 2003, that company received about
           80 percent of the TOP dollars in the Philippines. As a third party biller,
           the company billed and received payments from TRICARE directly
           without the provider certifying services were performed and accurately
           billed. Such a condition created an opportunity for the company to inflate
           charges. As a supplemental insurer, the company apparently waived
           required beneficiary co-payments and deductibles, passing the cost on to
           the Government through inflated medical claims. Although TMA initiated
           numerous administrative controls in the Philippines, additional controls
           are needed that will ensure providers are held accountable for claims
           submitted either by themselves or on their behalf and that supplemental
           health insurance plans do not illegally waive beneficiary co-payments and
           deductibles. Implementing the recommendations in this report could
           result in significant cost avoidance. Although we cannot quantify the
           amount, in July 2004 the Assistant Secretary of Defense (Health Affairs)
           estimated that healthcare fraud in the Philippines costs TRICARE more
           than $40 million annually. We will attempt to quantify the cost avoidance
           during our audit followup process.

TMA Initiatives
    To ensure access to healthcare for beneficiaries, TMA guidance states that
    overseas claims will be paid as billed, generally without limits. TMA referred
    multiple hotlines to DCIS as early as October 2000, however, healthcare costs
    continued to rise in the Philippines. TMA met with DCIS and the U.S. Attorney’s
    Office, Western District of Wisconsin, during 2001—at the invitation of DCIS
    and the U.S. Attorney’s Office, Western District of Wisconsin—to develop
    administrative controls that would help deter improper TRICARE claims.
    Specifically, TMA modified payment procedures for pharmacy claims in FY 2002
    to require National Drug Association Code (Red Book) pricing for the
    Philippines, Panama, and Costa Rica. TMA also contracted with a company,
    International SOS, to perform provider certification and verification before any
    payment of claims in the Philippines.

    In 2003, TMA began denying claims submitted without an actual beneficiary
    signature and also began performing special reviews of beneficiaries in the
    Philippines with excessive claims. TMA initiated additional controls in 2004.
    Examples of those controls include limiting payment for professional services in
    the Philippines to the CHAMPUS Maximum Allowable Charge levels established
    for Puerto Rico and requiring coding on claims submitted by agencies in addition
    to the narrative explanation of services rendered. TMA also required pricing of
    hospital/physician-dispensed drugs in the Philippines at Red Book prices (in


                                        5
     addition to the previously established Red Book pricing on pharmacy claims) and
     began disallowing fees for doctor visits when billed with prescription refills. In
     addition, TMA instituted an inpatient per diem system in the Philippines for
     maximum allowable hospital charges.

     After sharing our concerns about third party billing claims and the claims
     validation process, TMA modified their claims processing contract for overseas
     provider payments. The contract modification requires that Humana Military
     Healthcare Services notify Philippine healthcare providers that TRICARE will
     discontinue paying billing agencies directly. The contract modification also
     requires that the contractor send letters to Philippine beneficiaries advising them
     of their ability to choose any authorized physician as a provider, as well as the
     importance signatures play in the claims validation process. We also provided
     TMA with documentation showing that a third party billing agency (Company A)
     developed a scheme that apparently resulted in the routine waiver of deductibles
     and cost shares. Subsequently, TMA issued in June 2005 a news release on its
     Web site citing the congressional intent for establishing cost shares and the legal
     requirement for beneficiaries to pay cost shares.

Payments to Third Party Billing Agencies
     TMA should establish strict guidelines and procedures for validating medical
     claims from overseas third party billing agencies. Specifically, TMA should
     direct that the claims processing contractor, Humana Military Healthcare
     Services:

        •   Require that providers submit a statement of services rendered for each
            third party billing agency claim processed,

        •   Require that providers sign the Health Insurance Claim form submitted by
            the third party billing agency, and

        •   Discontinue directly paying third party billing agencies.
     Healthcare Market in the Philippines. Several third party billing agencies in
     the Philippines bill TRICARE on behalf of healthcare providers, however,
     Company A dominated the market in the Philippines. Company A also expanded
     its operations to Panama, Costa Rica, and Thailand. In FY 2003, Company A
     billed for 80 percent of the healthcare claims paid in the Philippines. See Figure 2
     for an illustration of Company A claims versus the remaining TRICARE claims in
     the Philippines.




                                          6
                        $60
                        $50
                        $40                                                               Company A


             Millions
                        $30                                                               Others
                        $20
                        $10
                         $0
                               1998    1999    2000       2001     2002      2003
                                                 Fiscal Year

                              Figure 2. Amount Paid to Company A and Others for
                               Philippine Claims From FY 1998 through FY 2003

         In addition to being a third party billing agency, Company A was also a
         healthcare provider. The company owns hospitals and clinics in the Philippines
         and has partnered with numerous physicians and related medical professionals.

         Company A employed military retirees as independent Retired Activities Office
         (RAO) representatives. 3 The independent RAO representatives Company A hired
         attempted to recruit fellow retirees who would use the Company A network of
         providers. The supplemental health insurance plan offered by a division of
         Company A enticed beneficiaries further to use its network of providers and
         facilities. The supplemental health insurance was available only to TRICARE
         beneficiaries and covered beneficiary cost shares. In effect, Company A (in their
         supplemental insurer capacity) apparently waived beneficiary deductibles and cost
         shares. The supplemental health insurance plan and its legal ramifications are
         discussed later in this report.

         Third Party Billing Agency’s Claim Processing Procedure. In their capacity
         as third party billing agency, Company A bills TRICARE without sending
         supporting provider statements. Company A then receives payments directly
         from TRICARE. In its standard agreement with medical providers in its network,
         Company A compensated providers directly for healthcare services rendered to
         beneficiaries. Company A in turn prepared and submitted the Centers for
         Medicare and Medicaid Services (CMS) Health Insurance Claim Form 1500
         (CMS Form 1500) to the TMA claims processing contractor, WPS.

         The intent of CMS Form 1500 was to provide a detailed listing of procedures
         providers perform as well as diagnosis codes and associated rates. Company A
         did not submit provider statements of services supporting the claim, nor did TMA
         require such support. Requiring that third party billing agencies attach provider
         statements of services to claim forms would help WPS validate the accuracy of
         claims submitted by third party billing agencies. Further, in the agreements
         between Company A and providers, each provider agreed to allow that
         Company A receive and endorse for deposit into the bank account of Company A
3
 RAOs serve as a link between local retirees and the military communities, as well as Government
agencies providing assistance to retirees. RAOs are staffed with retiree volunteers who assist other retirees
and retiree families to ensure that they receive the benefits to which they are entitled. Independent RAOs
operate in locations geographically isolated from commands.



                                                      7
     any TRICARE benefit checks made in the provider’s name. Such flexibility
     creates an opportunity not only for Company A but other third party billing
     agencies to potentially inflate charges without alerting providers or healthcare
     institutions. Sending payments directly to the providers, rather than third party
     billing agencies, should assist TMA in holding providers accountable for claims
     submitted, regardless of whether those claims are self-submitted or submitted
     through a third party billing agency.

     Inflated Claims and Claims for Services Not Rendered. To identify potentially
     inflated claims, we compared original provider statements of service DCIS
     obtained in the Philippines against corresponding claims Company A submitted in
     their third party billing agency capacity. Specifically, we reviewed
     322 Philippine TRICARE medical claims the U.S. Attorney’s Office, Western
     District of Wisconsin selected in support of an ongoing DCIS investigation of
     Company A. Company A filed those claims from 2000 through 2004 on behalf of
     seven hospitals. We reviewed each line item of service provided for bed charges
     and other items for costs exceeding about 1,000 Philippine pesos that directly
     matched an item on the Company A claim. The claim amounts Company A
     submitted to WPS should have been the same as the original hospital bill
     amounts, after conversion of pesos to U.S. dollars. However, for line items where
     quantities of services and supplies matched on the provider statements and the
     Company A claims, Company A inflated the original hospital line item amounts
     from $.4 million to $1.3 million, resulting in about $.9 million (about 232 percent)
     in excess charges. Table 1 shows the inflation of matched dollar line items from
     hospital statements of account and claims that Company A submitted.



                          Table 1. Hospital Billed Amount
                     Compared with Company A Claimed Amount
           (Bed Charges and Matched Items Exceeding 1,000 Philippine Pesos)

            Claims      Hospital Billed       Company A Claimed                Percentage
Hospital   Reviewed        Amount                 Amount          Difference   Difference
  A           54          $ 50,317               $ 170,342        $120,024        239
  B           28            19,179                   54,136         34,956        182
  C           23              3,104                   8,671          5,567        179
  D           56           147,002                  464,174        317,172        216
  E           26            55,035                  182,425        127,390        231
  F          117           129,371                  459,474        330,104        255
  G            18             1,307                   4,682          3,375        258
 Total       322          $405,315               $1,343,903       $938,588        232




                                          8
       Of the 322 claims reviewed, we identified 282 claims (88 percent) with matched
       items inflated on Company A claims. The remaining 40 claims were also inflated
       because the total claims were significantly higher than the total hospital bill.
       However, we could not definitively match any individual items that exceeded
       1,000 Philippine pesos on the hospital bill to the Company A bill. Using a static
       exchange rate, our review demonstrated that Company A generally increased the
       billed amount by about 233 percent. However, Company A actually increased
       provider fees often by several thousand percent. Table 2 provides examples of
       inflated items identified from our review of 322 claims Company A submitted.



               Table 2. Examples of Inflated Line Items by Company A

                                                          Company                 Percentage
Hospital    Supply or Service        Date    Hospital        A       Difference   Difference
  A        Room Fee             Aug. 2000    $ 38.00    $ 126.67     $ 88.67          233
  A        Zantac               Apr. 2001       34.08       113.64       79.56        233
  A        Doctor Fee           Jan. 2002       40.00       273.00      233.00        583
  B        Timentin             Aug. 2003      249.79       832.64      582.85        233
  B        Lipid Profile        Jan. 2004       48.00       160.00      112.00        233
  C        Doctor Fee           Aug. 2003       10.00       331.10      321.10      3,211
  C        Doctor Fee           Sept. 2003      40.00     1,110.25    1,070.25      2,676
  D        Duplex Scan          Nov. 2001       62.80       209.33      146.53        233
  D        Losec                Jan. 2002       47.44       158.13      110.69        233
  D        Stent Tsunami        Nov. 2003    3,243.00   10,810.00     7,567.00        233
  D        Blood Culture        Jan. 2004      102.24       340.80      238.56        233
  E        Doctor Fee           Jan. 2003    4,800.00    16,000.00      11,200        233
  E        Amoclav              Mar. 2003       60.10       200.34      140.24        233
  E        Eprex                Apr. 2003       76.13       253.77      177.64        233
  F        Therapy              May 2002        23.00        76.67       53.67        233
  F        Room Fee             Dec. 2002      731.00     2,436.67    1,705.67        233
  F        Doctor Fee           Jan. 2004      434.00     1,602.00    1,168.00        269
  G        Doctor Fee           May 2002       112.00     1,681.19    1,569.19      1,401
  G        Operating Room       Sept. 2003      21.20        70.67       49.47        233


       Alleged Billing for Services Not Rendered. The methodology used to review
       the 322 claims Company A submitted would not have identified services billed
       but not rendered. However, based on a review of Defense Hotline complaints and
       beneficiary survey results TMA provided, Company A appears to have submitted
       claims for services not rendered. Survey results received from beneficiaries in the
       Philippines repeatedly state that Company A submitted TRICARE claims for
       services not rendered, often during times when either the physician listed as
       providing the service or the beneficiary listed as receiving the service was
       reported as out of the country. In addition, TMA identified potentially false
       claims by Company A for doctor visits that never occurred when prescription
       refills were given.




                                             9
Validating Billing Agency Claims. To reduce the likelihood of paying for
improper claims, TMA should require that billing agencies submit provider
statements of services rendered and that providers performing the services sign
claims third party billing agencies submit to WPS for payment. Additionally, as
provided for in the contract modifications for overseas claims, TMA should also
discontinue the practice of sending payments to third party billing agencies.
Instead, TMA should send payments to the practice address of the provider when
claims are submitted by third party billing agencies.

        Provider Statements and Claim Forms. Requiring that provider
statements accompany claims third party billing agencies filed, and requiring that
providers who performed the services sign the claims, should place responsibility
on the provider for the accuracy of claims and help ensure that inflated claims are
not submitted. For the 322 claims reviewed, Company A (in their third party
billing agency capacity) did not submit provider statements of services along with
the claim (CMS Form 1500) sent to WPS for payment. As a result, WPS had no
statements of service from the provider of the medical services against which to
compare the claim Company A submitted. Further, even though the
CMS Form 1500 requires that the provider sign the form attesting to the accuracy
of the claim for services the provider (or employees under their immediate
supervision) furnished, that generally did not occur.

Our review of the 322 hospital claims Company A submitted showed that
20 claim forms had no signature, 19 forms could not be identified to either a
provider or Company A representative, 277 forms were signed by Company A
representatives (not the hospital or institution providing the services), and 6 forms
were signed by the provider rendering services. Of the 277 forms Company A
representatives signed, 32 forms were signed by one of the members of the Board
of Directors for Company A, while the remaining 245 forms received from
7 separate hospitals were signed by a Company A provider. Therefore, of the
322 hospital claims reviewed, at least 277 (86 percent) were not signed by the
provider of services.

The Company A representative (in the capacity as the third party billing agency)
signed claim forms at each of the seven hospitals reviewed. Certification from an
employee of the third party billing agency, rather than the provider of services or
supplies, defeats the purpose of the physician or supplier signature block on the
CMS Form 1500. With neither an accompanying statement of service from the
provider nor a provider’s signature on the claim, WPS did not have validation
from the provider that the specific services were performed and that the amounts
charged were accurate.

        Payments to Third Party Billing Agencies. GAO Report OSI-00-5R,
“Improper Billing of Medicare by BMS,” March 30, 2000, cites section
1395u(b)(6)(1998), title 42, United States Code [10 U.S.C. 1395u(b)(6)(1998)],
which states that Medicare payments must be made to the beneficiary or, under
assignment, to the medical provider who rendered the service. The report also
states that third party billing has been a congressional concern because third party
billing has historically been a source of incorrect and inflated claims for services.
WPS routinely sends payments and a corresponding Explanation of Benefits
statement directly to Company A and other third party billing agencies without


                                     10
     validation from the healthcare provider. Sending the payment and an Explanation
     of Benefits statement directly to providers should help ensure that providers are
     aware of claims submitted on their behalf and should also reduce the likelihood of
     improper claims submitted by third party billing agencies. Moreover, such a
     control should allow TMA to hold providers accountable for claims submitted on
     their behalf by third party billing agencies.

Waiver of Beneficiary Cost Shares
     Company A required that beneficiaries in the Philippines using its network of
     providers join the company’s supplemental health insurance plan, according to a
     Department of Justice interview with a Company A representative. The
     supplemental health insurance plan was available to only TRICARE-eligible
     beneficiaries and covered beneficiary cost shares, including the 25-percent cost
     share on claims and annual deductibles of $150 per individual or $300 per family,
     with a maximum membership fee of $100 per year. Until October 31, 2004, the
     annual enrollment fee was frequently waived according to a Company A hospital
     administrator. Records from the Philippine Securities and Exchange Commission
     show that both Company A and their supplemental health insurance company
     generally have the same members on the Board of Directors. Further, based on a
     Company A document, the supplemental health insurance company is a division
     of Company A. Thus, the “triple-hatted” role of Company A as billing agent,
     provider, and supplemental insurer apparently allowed that company to waive
     required beneficiary deductibles and cost shares while suffering no financial
     loss─because the inflated claims (233 percent discussed previously) more than
     covered annual deductibles and cost shares for the beneficiaries.
     Cost to Risk Analysis. Company A (in their capacity as supplemental insurer)
     apparently waived enrollment fees for beneficiaries to participate in its
     supplemental health insurance plan, and when the company did charge, the
     enrollment fees were minimal and not commensurate with the actuarial risk. In
     May 1991, the Department of Health and Human Services issued a special fraud
     alert to the Federal healthcare industry. The alert advised that when supplemental
     health insurance premiums paid by beneficiaries are insignificant and not based
     upon actuarial risks, the premiums “. . . are a sham used to disguise the routine
     waiver of co-payments and deductibles.” The fraud alert further stated that
     routinely waiving co-payments and deductibles is illegal.

     The annual fee schedule for the Company A supplemental health insurance
     ranged from a minimum of $20 to a maximum of $100. Assuming conservatively
     that each of the approximate 9,000 beneficiaries in the Philippines paid the
     maximum $100 enrollment fee (as of November 1, 2004), the supplemental
     insurance company could have suffered severe losses when comparing the low
     enrollment fee to actual beneficiary expenses that the plan would have covered.
     Out-of-pocket expenses consist of cost shares (co-payments and co-insurance)
     and deductibles the beneficiary would have paid if no such supplemental plan
     existed. See Table 3 for a comparison of income based on collection of maximum
     premiums versus actual out-of-pocket expenses.




                                         11
               Table 3. FY 2000 through FY 2003 Supplemental
                        Insurance Premiums and Costs

                                                   Out-of-
                                                   Pocket              Estimated
              Year             Income             Expenses               Loss

            FY 2000           $900,000          $2,513,587             $1,613,587
            FY 2001           $900,000          $3,255,618             $2,355,618
            FY 2002           $900,000          $4,997,806             $4,097,806
            FY 2003           $900,000          $5,876,594             $4,976,594


While not conclusive evidence that Company A incurred a loss for the
supplemental health insurance plan offered to TRICARE beneficiaries, the data
are an indicator supporting that premiums were not commensurate with the risk.
Additionally, supplemental health insurance plans normally have deductibles and
limit what companies will pay for an item or service. In contrast, the
supplemental plan Company A offers TRICARE beneficiaries apparently waives
cost shares and deductibles and has no such coverage limitations. The practice of
offering discounts and waiving cost shares to beneficiaries covered through
Federal health plans is another indicator of potential unlawful waiver of cost
shares the Department of Health and Human Services Fraud Alert outlined.

Potentially Unlawful Supplemental Health Insurance Plans. The statutorily
mandated requirement that beneficiaries pay a portion of their medical costs,
outlined in 10 U.S.C. 1086, is intended as a “self-policing” method for ensuring
that medical services are necessary and reasonably priced. We worked with DCIS
investigators to review documents relative to the Company A supplemental plan.
TMA was aware of that supplemental plan as early as September 2002, expressed
concerns about its legality, and referred the matter to DCIS. We provided TMA
with data showing that the Company A supplemental health insurance plan was
improper and was used to disguise the apparently routine waiver of required
beneficiary cost shares. We also provided TMA with a copy of the May 1991
Special Alert where the Department of Health and Human Services warned
against similar schemes. As a result, the Director of the Program Integrity Office
at TMA issued the following news release on June 13, 2005, on their Web site.
The news release cites the congressional intent for establishing cost shares and the
legal requirement for beneficiaries to pay cost shares:
       Uniformed Services beneficiaries who use TRICARE Standard and
       Extra are responsible, under law, to pay annual deductibles and
       cost-shares associated with their care. The law prohibits healthcare
       providers from waiving TRICARE beneficiary deductibles or
       cost-shares and requires providers to make reasonable efforts to collect
       these amounts. Healthcare providers who offer to waive deductibles
       and cost-shares or who advertise that they will do so may be
       investigated for program abuse and suspended or excluded as
       authorized providers. . . TRICARE prohibits any scheme designed to
       waive a patient’s deductible or cost-share. One type of scheme comes
       in the form of a supplemental insurance program which covers



                                         12
       copayments or deductibles only for items or services provided by the
       entity offering the insurance. These programs can be identified when
       the ‘insurance premium’ paid by the beneficiary is insignificant and the
       premiums so low that they are not based upon actuarial risks, but
       instead are a sham used to disguise the routine waiver of copayments
       and deductibles. Such a scam can result in excessive utilization of items
       and services. . . When Congress established beneficiary deductibles
       and cost-shares, their intent was to make the beneficiary a financial
       partner with the government. The cost-share encourages responsible
       beneficiary health care decisions when faced with choices, and acts to
       avoid waste of taxpayer dollars. Beneficiaries who have a financial risk
       associated with their health care decisions are more likely to choose
       cost-effective treatment for their medical conditions.

The TMA news release warns beneficiaries of circumstances outlined in the
Department of Health and Human Services Fraud Alert, which states that the
routine waiver of cost shares by providers is unlawful because the results are false
claims, violations of the anti-kickback statute, and excessive use of medical
services and supplies for which the Government pays. The release warns that
failure to collect cost shares or deductibles for reasons unrelated to indigency as
well as insurance premiums not based upon actuarial risks, may be a sham used to
disguise the routine waiver of cost shares. The anti-kickback statute,
42 U.S.C. 1320a-7b, makes it a criminal offense for those who knowingly and
willfully offer, pay, solicit, or receive remuneration that induces the referral of
business and for which a Federal healthcare program might pay. In addition,
42 U.S.C. 1320a-7a provides civil monetary penalties and discusses the link
between waiver of cost shares and remuneration, stating that because Medicare
beneficiaries are obligated to pay cost shares, a waiver of that obligation
constitutes remuneration to the beneficiary.

Identifying Unlawful Waiver of Cost Shares. TMA should establish
procedures for identifying and eliminating supplemental plans that unlawfully
waive required beneficiary cost shares. While we recognize that TMA cannot
prevent beneficiaries from joining supplemental plans, the arrangement between
Company A and the required supplemental insurer is contrary to the guidance on
supplemental plans and may be an illegal waiver of required beneficiary cost
shares. TRICARE Operations Manual 6010.51-M, August 1, 2002, Chapter 14,
Program Integrity, states that 32 C.F.R. Section 199.4 (2004) sets forth the
financial liability of the TRICARE beneficiary for cost shares. The manual also
states that the regulatory requirement is derived from the statutory requirements
of 10 U.S.C. 1079 and 1086. The manual requires that the claims processing
contractor establish procedures for detecting providers who waive cost shares and
provides possible methods for detecting cost share waivers. Through their
supplemental health insurance plan, Company A apparently waived statutorily
mandated beneficiary cost shares. Waiver of cost shares is evidenced not only by
the insignificant supplemental health insurance premiums but also through the
Company A Web site and newsletters as well as responses from a 2004
beneficiary survey.




                                         13
Administrative Sanctions
    As it identifies those abusing or committing healthcare fraud against the
    TRICARE program, TMA needs to pursue administrative remedies provided for
    in 32 C.F.R. Section 199. Administrative remedies exist through
    32 C.F.R. Section 199.9 under CHAMPUS in situations involving fraud, abuse, or
    conflict of interest.

    The term abuse generally describes incidents and practices that may directly or
    indirectly cause financial loss to the Government under CHAMPUS or
    CHAMPUS beneficiaries. According to 32 C.F.R. 199.2, abuse includes any
    practice inconsistent with accepted sound fiscal, business, or professional practice
    and results in unnecessary costs. Abuse includes deception or misrepresentation
    by a provider, or any person or entity acting on behalf of a provider, in relation to
    a CHAMPUS claim. Abuse situations covered in 32 C.F.R. Section 199.9
    include, but are not limited to:
       •   Improper billing practices that include charging rates in excess of those
           routinely charged to the general public, commercial health insurance
           carriers, or other Federal health benefit entitlement programs for the same
           or similar services;

       •   Billing in excess of customary or reasonable charges;

       •   A pattern of waiver of beneficiary (patient) cost shares or deductibles;

       •   Unauthorized use of the term CHAMPUS in private business to imply an
           official connection with the Government; and

       •   Refusal to furnish or allow the Government or Government contractors’
           access to records related to CHAMPUS claims.

    Because Company A may have perpetuated each of those abuse situations, TMA
    should exercise appropriate administrative remedies available in
    32 C.F.R. Section 199.9. In addition to inflated billing and the apparent waiver of
    beneficiary cost shares, Company A may have also inferred an official connection
    with the Government through use of Government symbols on their Web site and
    on independent RAO newsletters that Company A employees prepared. As
    outlined in Secretary of Navy Instruction 5420.169H, “Department of the Navy
    Retired Activities Program,” dated April 23, 1996, RAOs serve as a link between
    retirees and Government agencies such as TRICARE that provide assistance to
    retirees. Company A employees serving as independent RAOs in the Philippines
    inappropriately referred to Company A in RAO newsletters as the TRICARE
    provider in the Philippines, thereby possibly presenting an official connection
    between Company A and the Government. Further, according to investigators
    from DCIS and the U.S. Attorney’s Office, Western District of Wisconsin,
    Company A had agreements with providers to withhold information from the
    U.S. Government and not provide the Government with requested documentation.




                                         14
    TMA should coordinate with the U.S. Attorney’s Office and their legal staff to
    exercise appropriate administrative sanctions against Company A and
    Company A affiliates, to include exclusion from participating in the TRICARE
    program. Our review of records received from the Philippine Securities and
    Exchange Commission and other Company A documents showed that
    Company A has agreements with, or shares the same members on their boards of
    directors with, at least 13 hospitals, clinics, or providers. Also, the Company A
    Web site as of January 19, 2005, lists 118 hospitals, clinics, and providers in the
    Philippines; 10 in Costa Rica; and 7 in Thailand. As a result, TMA should
    exercise appropriate administrative sanctioning authority against Company A and
    any other companies who routinely abuse the TRICARE program. Following
    coordination with DCIS and the U.S. Attorney’s Office, Western District of
    Wisconsin, we forwarded to TMA records supporting Company A abuse of the
    TRICARE Program and affiliations with other companies.

Assessing the Management Control Program
    TMA should report the material weakness identified in this report in future annual
    statements required under the Federal Managers’ Financial Integrity Act of 1982.
    Specifically, TMA controls did not adequately ensure that third party billing
    agencies were properly submitting TRICARE overseas claims. In addition, TMA
    should establish procedures that can detect improper waivers of cost shares and
    deductibles. Further, TMA should reassess the risk associated with the TRICARE
    Overseas Program─Access to Care in the Philippines as high because as stated in
    a July 23, 2004, memorandum, the Assistant Secretary of Defense (Health
    Affairs) estimates the cost of healthcare fraud in the Philippines to exceed
    $40 million annually. TMA should continue to assess the risk for the TRICARE
    Overseas Program─Access to Care in the Philippines as high until management
    successfully implements additional controls that will further reduce the risk of
    fraud.

Conclusion
    TMA should strengthen controls that reduce the possibility for abusive practices
    of the TRICARE program in the Philippines by establishing guidelines and
    procedures for validating medical claims. Although TMA initiated control
    procedures not previously applied to overseas claims, more can and should be
    accomplished. TMA needs to implement controls that will ensure providers are
    accountable for claims submitted and ensure that supplemental health insurance
    plans do not illegally waive beneficiary cost shares and deductibles. Specifically,
    TMA should require that billing agencies submit provider statements of service
    along with billing agency claims, ensure that providers sign all billing agency
    claims, and stop the practice of sending payments directly to third party billing
    agencies. Additionally, TMA should be proactive in exercising its administrative
    sanctioning authority, to include excluding those who might routinely abuse the
    TRICARE program. Implementing the recommendations in this report should
    result in significant cost avoidance. Although we cannot quantify the amount, the
    Assistant Secretary of Defense (Health Affairs) estimated healthcare fraud in the



                                        15
    Philippines costs TRICARE more than $40 million annually in July 2004. We
    will attempt to quantify the cost avoidance during our audit followup process.

Recommendations, Management Comments, and Audit
  Response
   Revised Recommendation. We revised draft Recommendation 2. to clarify the
   intent of the recommendation. The Assistant Secretary of Health Affairs response
   supports the revised recommendation. Therefore, as discussed below, no
   additional comments are required on the revised recommendation.

   1. We recommend that the Director, TRICARE Management Activity direct
   through modification of its operations manual and contract that the claims
   processing contractor for the TRICARE Overseas Program:
          a. Require that third party billing agencies submit provider
    statements of services rendered.

           b. Require that the provider who performs the services certify the
    claims forms rather than accepting signatures of third party billing agency
    representatives.

            c. Discontinue sending claims payments to the address of third party
    billing agencies. For claims that third party billing agencies submit,
    payments should be sent only to the provider.

    Management Comments. The Assistant Secretary of Defense (Health Affairs)
    concurred, stating that the recommendations were implemented. Specifically, the
    Assistant Secretary stated that TMA now requires provider signatures on claim
    forms and sends payments to provider addresses only. To satisfy
    Recommendation 1.a., TMA changed the TRICARE Policy Manual to require
    that the claims processing contractor obtain attestations from the top 10 percent of
    providers in the Philippines. In changing the process, TMA now requires that the
    claims processing contractor receive attestations for claims before payment.

    Audit Response. The Assistant Secretary of Defense (Health Affairs) comments
    are responsive. We agree with the Assistant Secretary’s alternative proposal for
    Recommendation 1.a. By requiring that the claims processing contractor receive
    attestations from providers before payments are made, TMA satisfied the intent of
    the recommendation to prevent improper payments. No additional comments are
    required.

    2. We recommend that the Director, TRICARE Management Activity
    establish TRICARE Overseas Program procedures that can not identify
    supplemental health insurance plans that unlawfully waive cost shares.

    Management Comments. The Assistant Secretary of Defense (Health Affairs)
    concurred. Specifically, the Assistant Secretary stated that TMA will establish a
    program that can identify supplemental health insurance plans that may result in
    illegal inflation of fees or waiver of cost-shares and deductibles.


                                         16
Audit Response. The Assistant Secretary of Defense (Health Affairs) comments
are fully responsive. No additional comments are required.

3. We recommend that the Director, TRICARE Management Activity
exercise its administrative sanctioning authority, to include excluding those
found routinely abusing the TRICARE program.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred, stating that TMA initiated action to exclude Company A. The
Assistant Secretary also stated that TMA will review other situations DoD Office
of Inspector General (OIG) identified for administrative action.

Audit Response. The Assistant Secretary of Defense (Health Affairs) comments
are responsive. However, we caution TMA from relying on criminal proceedings
or recommendations from DoD OIG to initiate administrative sanctions.
Aggressive pursuit and implementation of timely administrative controls and
sanctions are needed. TMA used data provided by the DoD OIG to propose
excluding Company A from the TRICARE program in November 2005. TMA
had access to the data for years and could have used their administrative
sanctioning authority. Following receipt of allegations of abuse from TMA and
beginning in December 2000, DCIS repeatedly advised that TMA take immediate
actions that would prevent fraud without regard to the impact on the investigation.
Moreover, TMA was aware as early as September 2002 of the supplemental plan
Company A offered that apparently waived required beneficiary cost shares. On
that factor alone, TMA could have taken action against Company A for violating
the anti-kickback statute. Further, there were numerous beneficiary allegations
that Company A billed for services not rendered, or not medically necessary, and
grossly inflated TRICARE claims.

As discussed in this report, 32 C.F.R. Section 199 provides sanctioning authority
to TMA for instances that include abuse. The term abuse describes incidents and
practices that may directly or indirectly cause financial loss to the Government.
TMA should not rely solely on investigative support when initiating sanctioning.
Identification and prevention of fraud, waste, and abuse in the TRICARE program
is a TMA responsibility, the outcome of which cannot be controlled through
criminal or civil proceedings or DoD OIG recommendations.

4. We recommend that the Director, TRICARE Management Activity report
the material weakness identified in this report in future annual statements
required under the Federal Managers’ Financial Integrity Act of 1982 until
the material weakness is corrected.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
did not concur, stating that a material weakness did not exist. Specifically, the
Assistant Secretary cites the definition for a material weakness as DoD Instruction
5010.40 defines. The definition states:
       E2.1.18. Material Weakness. Specific instances of noncompliance with
       31 U.S.C. 3512 (reference (b)) of such sufficient importance to warrant
       reporting of the control deficiency to the next higher level of
       management. Such weaknesses significantly impair or may impair the



                                         17
       fulfillment of a DoD Component’s mission or operational objective; to
       deprive the public of needed services; violate statutory or regulatory
       requirements; significantly weaken safeguards against fraud, waste, or
       mismanagement of funds, property, or other assets; or result in a
       conflict of interest . . ..

The Assistant Secretary also asserts that fraud was identified and that TMA
developed evidence for taking action against Company A. The Assistant
Secretary also referred to other administrative actions discussed in this report that
serve as a deterrent to future wide-scale fraud.

Audit Response. The Assistant Secretary of Defense (Health Affairs) comments
are not responsive. While TMA actions reduced possible fraud in the Philippines,
until it obtains evidence that the material weakness is corrected, TMA should
report the weakness as material in its annual statement the Federal Manager’s
Financial Integrity Act of 1982 requires. DoD Instruction 5010.40 supports the
determination that the management control weakness cited was material.
Specifically, the lack of controls weakens safeguards against fraud, waste, or
mismanagement of funds, property, or other assets.
Considering that TMA continues to request assistance from DCIS investigators
and believes that alleged fraud is rapidly spreading to countries in Latin America,
TMA should report the weakness cited in the report as material. DoD Instruction
5010.40 provides 12 factors for management to consider for determining whether
the absence of or noncompliance with a control is a material weakness and
includes:

   •   actual or potential loss of resources;

   •   magnitude of funds, property, or other resources involved;

   •   frequency of actual loss and/or potential loss;

   •   current or probable media interest (adverse publicity); and

   •   current or probable congressional interest (adverse publicity).

TMA estimated that fraudulent healthcare payments in the Philippines totaled
about $40 million out of payments totaling $64.2 million in FY 2003. TMAs’
comment to the report that fraudulent practices continue to occur and are rapidly
spreading to Latin American countries supports the basis for reporting a material
control weakness on the widespread problem of fraudulent claims. The spread of
abuse would likely peak media and congressional interest as well as increase the
frequency of loss to the TOP.

TMA should also consider reporting that the TOP is susceptible to significant
erroneous payments in the DoD Annual Performance and Accountability Report
to the President and Congress in accordance with Public Law 107-300, Improper
Payments Information Act of 2002. According to that Act, for program and
activities where the risk of erroneous payments is significant, agencies must
estimate the annual amount of erroneous payments as well as include those


                                        18
estimates in their Annual Performance and Accountability Report to the President
and Congress. In addition to including the information in the annual report,
agencies must provide a progress report on any action that resulted in reductions
of erroneous payments. The Act also defines significant erroneous payments
(including payments for incorrect amounts and for services not received) as those
payments exceeding both $10 million annually and 2.5 percent of program
payments. TMA should continue to estimate the amount of erroneous payments
and consider reporting that information as appropriate under Public Law 107-300.
We request that management provide additional comments on
Recommendation 4. by March 10, 2006.

5. We recommend that the Director, TRICARE Management Activity assess
the risk associated with the TRICARE Overseas Program─Access to Care in
the Philippines as high until additional controls that minimize the risk of
fraud are implemented.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
did not concur, stating that the risk associated with the TOP assessable unit was
correctly assessed at low. The Assistant Secretary also stated that the assessment
of low was based on the TMA assertion that it met the Established Entity-Wide
Objective to effectively manage the taxpayers’ finite dollars through the
minimalization of fraud. The Assistant Secretary stated that effective practices
are in place that identify fraud resulting in notification of DCIS of possible
criminal activity. The Assistant Secretary further stated that the absence of
appropriate, necessary DCIS personnel significantly hampered the DoD ability to
investigate the fraud and abuse TMA believes occurred.

Audit Response. The Assistant Secretary of Defense (Health Affairs) comments
are not responsive. TMA should elevate from low to high the risk level
associated with the TOP assessable unit until additional controls that minimize the
risk are implemented and tested. According to DoD Instruction 5010.40, risk
levels represent “the probable or potential adverse effects from inadequate
management controls that may result in the loss of Government resources or cause
an agency to fail to accomplish significant mission objectives through fraud,
error, or mismanagement.” In addition, the Office of Management and Budget
Circular No. A-123 (Revised), “Management’s Responsibility for Internal
Control,” states, “Management should identify internal and external risks that may
prevent the organization from meeting its objective.” According to the GAO
publication, “Standards for Internal Control in the Federal Government,”
November 1999, internal controls (management controls) help Government
program managers achieve desired results through effective stewardship of public
resources. Further, in analyzing the possible effect of a risk, an organization
should generally include estimating the risk’s significance, assessing the
likelihood of its occurrence and deciding how to manage the risk and what actions
should be taken.

Although TMA implemented a number of controls over healthcare payments in
the Philippines, additional management controls are needed that will ensure TMA
effectively manages the TOP and minimizes fraud. The TMA assessment of the
program’s risk as low is inconsistent with their request for additional investigative
support for specific instances of alleged fraud and their statement that alleged


                                     19
fraudulent practices are rapidly spreading to countries in Latin America. While
successful prosecutions are a deterrent, management needs to close systemic
loopholes in management controls that allow improper payments to take place.
As stated previously, TMA has ultimate responsibility for managing TOP.
Identifying potential fraudulent actions after they occur and referring such actions
for OIG investigation does not fulfill TMA responsibility for program
management and does not lessen program risk to fraud, waste, and abuse. We
request that management provide additional comments on Recommendation 5. by
March 10, 2006.




                                     20
Appendix A. Scope and Methodology
   We reviewed public laws, the Code of Federal Regulations, as well as DoD and
   TMA regulations relating to how third party billing agencies submit claims in
   TOP. We visited the Program Integrity Office for TMA in Aurora, Colorado, the
   office responsible for preventing and identifying fraudulent and abusive
   healthcare activities against TRICARE. We visited WPS in Madison, Wisconsin.
   WPS is responsible for processing all overseas TRICARE claims. We also visited
   the Department of Veterans Affairs, Health Administration Center, in Denver,
   Colorado. That organization is responsible for preventing and identifying
   fraudulent and abusive healthcare activities against the Department of Veterans
   Affairs and determining the controls in place for third party billing agencies.
   Additionally, we visited the TRICARE South region in San Antonio, Texas,
   because it is responsible for the overseas claims processing contract.
   As an investigative assist to DCIS, we assessed accuracy of the claims
   Company A submitted by comparing the original provider statements of service
   with corresponding Company A claims. Specifically, we reviewed 322 claims
   (selected by the U.S. Attorney’s Office, Western District of Wisconsin)
   Company A filed on behalf of 7 separate hospitals from 2000 through 2004. We
   performed a detailed analysis of each line item of service provided for all bed
   charges as well as other line items with a cost exceeding about 1,000 Philippine
   pesos and that could be directly matched to a line item on the Company A claim
   form.

   In addition to our analysis for DCIS, we identified information that TMA could
   have used to manage TOP. We queried TMA Care Detail Information System
   (CDIS) data to determine if supplemental health insurance premiums were
   commensurate with the actuarial risk and obtain background information. We did
   not include FY 2004 data in our report because providers are allowed 12 months
   for submitting claims, and as such, FY 2004 CDIS data were not yet finalized.

   We used the CDIS database to determine if the premiums Company A could have
   charged beneficiaries to join its supplemental plan were commensurate with the
   benefits the company would have had to pay. Specifically, we extracted from the
   CDIS database for FY 2000 through FY 2003 the out-of-pocket expenses for all
   claims paid to Company A and compared that amount to the maximum income
   Company A would have received had each beneficiary joined its supplemental
   health insurance plan and paid the maximum enrollment (premium) fee of $100 a
   year. To determine the beneficiary out-of-pocket expenses, we queried CDIS to
   find the actual amount of cost shares and deductibles for claims Company A
   submitted.

   We performed this audit from October 2004 through October 2005 in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. We used CDIS claims data to determine
   background information as well as the amount of cost shares and deductibles
   TRICARE beneficiaries in the Philippines should have incurred. To determine
   the adequacy of computer-processed data, we compared claims submitted by


                                      21
      Company A to the information WPS entered into CDIS. For the 322 claims
      reviewed as part of our assist work provided to the U.S. Attorney’s Office,
      Western District of Wisconsin, 255 matched (79 percent) the information in
      CDIS. Most of the differences between CDIS and the claims the company
      submitted could be explained and generally were not inaccuracies. Therefore, the
      information is still usable for our intended purposes. According to DoD Inspector
      General (IG) Report No. D-2002-072, “Information Assurance Controls for the
      Source Data Collection System Used for Purchased Care Data,” March 26, 2002,
      the source data collection system, which is where the CDIS claims are stored, is
      vulnerable to loss of data and providing unreliable financial data. In the report,
      TMA concurs with all recommendations and states that necessary actions were
      either completed or in progress.

      Use of Technical Assistance. We consulted the DoD OIG Qualitative Methods
      Division to assist with determining the rate of inflation for medical services in the
      Philippines from 1998 through 2003. The Qualitative Methods Division adjusted
      data on TRICARE payments for medical inflation and exchange rates.

      GAO High-Risk Areas. GAO has identified several high-risk areas in DoD.
      This report provides coverage of the high risk areas: “DoD Financial
      Management” and “DoD Support Infrastructure Management.”

Prior Coverage
      During the last 5 years, GAO and DoD IG issued two reports that discuss
      improper third party billing practices and reliability of computer-processed data.
      Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      GAO Testimony Report No. T-OSI-00-15, “Healthcare Fraud: Schemes to
      Defraud Medicare, Medicaid, and Private Healthcare Insurers,” July 25, 2000

DoD IG
      DoD IG Report No. D-2002-072, “Information Assurance Controls for the Source
      Data Collection System Used for Purchased Care Data,” March 26, 2002




                                           22
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Assistant Secretary of Defense (Health Affairs)
General Counsel

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Manpower Data Center

Non-Defense Federal Organization
Office of Management and Budget
Office of the United States Attorney, Madison, Wisconsin

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        24
Assistant Secretary of Defense (Health Affairs)
Comments




                       25
26
27
28
29
Final Report
 Reference




               30
31
32
     Final Report
      Reference




33
34
35
36
37
